No. _____________

In The Supreme Court of the United States
___________________
MURPHY J. PAINTER
v.
SHANE EVANS
___________________

Petitioner,

Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF LOUISIANA
_________________________________________________
PETITION FOR A WRIT OF CERTIORARI
_________________________________________________
ROBERT N. AGUILUZ
Counsel of Record
8702 Jefferson Hwy
Suite B
Baton Rouge, LA 70809
225.952.2005

i

QUESTION PRESENTED
The questions presented are:
1.
Does the First Amendment to the United States
Constitution apply to government speech, such that
defamatory government speech constitutes an act in
furtherance of of a right to free speech under the
United States Constitution?
2.
Does government speech become “protected
speech” under the First Amendment to the United
States Constitution solely on the basis that the target
of the defamatory speech is a public figure?
3.
If the criteria in New York Times v. Sullivan
apply to the circumstances of this case such that
constitutional protections for speech and press limit
the state court’s power to award damages in a libel
action brought by a public official against a
government employee speaking in the course and
scope of his government position, does it also divest
the public official of any remedy whatsoever,
including the right to seek a judgment from the Court
that the speech at issue was defamatory?

ii

PARTIES TO THE PROCEEDINGS
Murphy J. Painter is the Petitioner and was the
Respondent/Plaintiff in the proceedings below. Shane
Evans is the Respondent and the Applicant/Defendant
in the proceedings below. Other parties to the action
below who are not made parties to this Petition for
Writ of Certiorari are The Louisiana Office of
Inspector General; Inspector General Stephen Street;
Brant Thompson; and Louis Thompson.

iii

TABLE OF CONTENTS
QUESTION PRESENTED

i

PARTIES TO THE PROCEEDINGS

ii

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

vi

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS
PETITION

FOR

GRANTING

THE

1.
Statements
by
government
employees made pursuant to their
official duties do not enjoy First
Amendment protection because the
government
employees
are
not
speaking as citizens. Such speech
therefore does not constitute an act in
furtherance of a First Amendment
right to free speech.

16
19

iv

2. Government speech does not become
“protected speech” under the First
Amendment to the United States
Constitution simply because the target
of the speech is a public figure.

23

3. This Court has not changed the
elements constituting defamation.

24

4. This Court did not divest public
officials or public figures of the right to
seek a ruling from the courts that the
speech at issue was defamatory.

26

CONCLUSION

27

APPENDIX A- MINUTE ENTRY WITH
RULING FROM THE [DISTRICT]
COURT DENYING EVANS’S SPECIAL
MOTION TO STRIKE

1a

APPENDIX B- JUDGMENT DENYING
SPECIAL MOTION TO STRIKE

2a

APPENDIX C- WRIT GRANTED WITH
ORDER GRANTING EVANS’S
SPECIAL MOTION TO STRIKE AND
DISMISSING MR. PAINTER’S
DEFAMATION CLAIM WITH
PREJUDICE

4a

APPENDIX D- DENIAL OF
APPLICATION FOR REHEARING

7a

v

APPENDIX E- DENIAL OF WRITLOUISIANA SUPREME COURT

8a

vi

TABLE OF AUTHORITIES
FEDERAL CASES
Columbia Broadcasting System, Inc.
v. Democratic National Committee,
412 U.S. 94 (1973)
Connick v. Myers, 461 U. S. 138
(1983)
Garcetti v. Ceballos, 547 U.S. 410
(2006)
Gertz v. Robert Welch, Inc., 418 U.S.
323 (1974)

25
19, 24
6, 14, 19, 20,
22, 23, 24
18

New York Times v. Sullivan, 376
U.S. 254 (1964)

16, 19, 22,
23, 25, 26

Philadelphia Newspapers, Inc. v.
Hepps, 475 U.S. 767 (1986)

18

Pickering v. Board of Ed. of
Township High School Dist. 205,
Will Cty., 391 U. S. 563 (1968)

19

Rosenbloom v. Metromedia, Inc., 403
U.S. 29 (1971)

17

vii

STATE CASES
Kennedy v. East Baton Rouge Parish
Sheriff’s Office, 935 So. 2d 669 (La.
2006)

17, 21

Starr v. Boudreaux, 978 So.2d 384
(La. App. 1 Cir. 2007)

17, 18

Trentecosta v. Beck, 703 So. 2d 552
(La. 1997)

21, 22

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. I
U.S. Const. art. III, §2, cl.1
La. Const. art. I, §22

2
26

FEDERAL STATUTES
28 U.S.C. 1257(a)

2

STATE STATUTES
La. Code Civ. Proc. art. 971 (A)(1)
La. Code Crim. P. art. 162
LSA-R.S. 49:220.5
LSA-R.S. 49:220.24(F)(3)

6, 23
8
13
12

1

OPINIONS BELOW
The Louisiana Supreme Court’s denial of
Petitioner’s Application for Writ of Certiorari is
unpublished. The Louisiana First Circuit’s Decision
has not yet been published, and it is unknown
whether it will be designated for publication. The 19th
Judicial District Court’s denial of Respondent’s
Special Motion to Strike is unpublished.
JURISDICTION
On December 26, 2018, the Louisiana First Circuit
Court of Appeal issued its decision on Respondent
Shane Evans’s Application for Supervisory Writ,
granting the writ in part and reversing the District
Court’s denial of his Special Motion to Strike
Petitioner Murphy Painter’s defamation claim, and
dismissing that claim with prejudice. In the same
decision, the First Circuit denied the writ application
as to the District Court’s denial of the Special Motion
to Strike Petitioner Murphy Painter’s Fourth
Amendment and abuse of process claims on the basis
that those claims were not subject to a special motion
to strike. However, the Court concurrently issued a
decision granting Respondent Shane Evans’s writ
application challenging the District Court’s denial of
his Exception of No Cause of Action as to those claims,
reversing the District Court, and dismissing those
claims with prejudice. There are no pending claims
against Evans remaining below.
Mr. Painter timely filed an Application for
Rehearing on the judgment granting the writ and

2

dismissing his defamation claim. The Application for
Rehearing was denied on January 17, 2019.
Mr. Painter timely filed an Application for Writ of
Certiorari with the Louisiana Supreme Court. The
decree of the Louisiana Supreme Court denying the
writ application and refusing to exercise its
discretionary authority over the decision of the
Louisiana First Circuit Court of appeal was issued on
April 8, 2019.
This Court’s jurisdiction is invoked under Article
III, Section 2 of the United States Constitution and
28.U.S.C. 1257(a).

3

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
U.S. Const. art. III, §2, cl.1
The judicial power shall extend to all cases, in law and
equity, arising under this Constitution, the laws of the
United States, and treaties made, or which shall be
made, under their authority;--to all cases affecting
ambassadors, other public ministers and consuls;--to
all cases of admiralty and maritime jurisdiction;--to
controversies to which the United States shall be a
party;--to controversies between two or more states;-between a state and citizens of another state;-between citizens of different states;--between citizens
of the same state claiming lands under grants of
different states, and between a state, or the citizens
thereof, and foreign states, citizens or subjects.
La. Const. art. I, §22
§22. Access to Courts- All courts shall be open, and
every person shall have an adequate remedy by due
process of law and justice, administered without
denial, partiality, or unreasonable delay, for injury to
him in his person, property, reputation, or other
rights.

4

28 U.S.C. 1257(a)
Final judgments or decrees rendered by the highest
court of a State in which a decision could be had, may
be reviewed by the Supreme Court by writ of certiorari
where the validity of a treaty or statute of the United
States is drawn in question or where the validity of a
statute of any State is drawn in question on the
ground of its being repugnant to the Constitution,
treaties, or laws of the United States, or where any
title, right, privilege, or immunity is specially set up
or claimed under the Constitution or the treaties or
statutes of, or any commission held or authority
exercised under, the United States.
La. Code Civ. P. art. 971(A)(1)
A cause of action against a person arising from any act
of that person in furtherance of the person's right of
petition or free speech under the United States or
Louisiana Constitution in connection with a public
issue shall be subject to a special motion to strike,
unless the court determines that the plaintiff has
established a probability of success on the claim.
La. Code Crim. P. art. 162
A. A search warrant may issue only upon probable
cause established to the satisfaction of the judge, by
the affidavit of a credible person, reciting facts
establishing the cause for issuance of the warrant.
B. In any application for warrant, an affidavit
containing the electronic signature of the applicant
shall satisfy the constitutional requirement that the
testimony of the applicant be made under oath,
provided that such signature is made under penalty of
perjury and in compliance with R.S. 9:2603.1(D).

5

C. A search warrant shall particularly describe the
person or place to be searched, the persons or things
to be seized, and the lawful purpose or reason for the
search or seizure.
LSA-R.S. 49:220.5
Except for the reports of investigations released as
provided in R.S. 49:220.24(C)(6), the records prepared
or obtained by the inspector general in connection
with investigations conducted by the inspector
general shall be deemed confidential and protected
from disclosure.
LSA-R.S. 49:220.24(F)(3)
The inspector general shall have access to all records,
information, data, reports, plans, projections, matters,
contracts, memoranda, correspondence, and any other
materials of a covered agency . . .
STATEMENT OF THE CASE
Murphy J. Painter seeks review of the Louisiana
First Circuit Court of Appeals’ decision on application
for supervisory writ. The Louisiana First Circuit
reversed a district court’s denial of Respondent Shane
Evans’s Special Motion to Strike and dismissed Mr.
Painter’s defamation claim with prejudice.
Mr. Painter’s defamation claims against Evans
stem from false representations of “fact” Evans made
in a warrant application in his capacity as an
investigator for the Louisiana Office of Inspector
General (OIG).
Evans made numerous false
statements in a warrant application affidavit that he

6

presented to the Court, including false statements of
criminal conduct by Mr. Painter that he attributed to
Ms. Kelli Suire.
The threshold issue in a special motion to strike
under Louisiana law requires the court to determine
an issue of constitutional law: whether the cause of
action arises from an act of the defendant in
furtherance of his right of petition or free speech
under the United States or Louisiana Constitution in
connection with a public issue. La. Code Civ. Proc. art.
971 (A)(1). Reversing the district court and granting
the special motion to strike required the Louisiana
First Circuit to ignore United States Supreme Court
precedent that when public employees make
statements pursuant to their official duties, the
employees do not enjoy First Amendment protection
because they are not speaking as citizens, and that
“the
Constitution does not
insulate
their
communications.” Garcetti v. Ceballos, 547 U.S. 410,
421, 426 (2006). Although the Louisiana First Circuit
acknowledged that Evans’s statements were made in
the course and scope of his duty as an OIG
Investigator, it held:
Murphy J. Painter alleged two causes of action
arising from statements Shane Evans made in a
search warrant application and his Office of
Inspector General investigative report in
furtherance of his First Amendment rights
and in connection with a public issue… Thus,
the burden shifted to Murphy J. Painter to
demonstrate likelihood of success on the merits

7

of these two claims. 1 [Emphasis Supplied]
This case originated after Plaintiff/Applicant
Murphy Painter was charged criminally with 42
counts of computer fraud, false statements, and
aggravated identity theft following an OIG
investigation of Mr. Painter conducted by Evans.
Inspector
General
Stephen
Street
recently
acknowledged under oath that the Justice
Department’s prosecution of Mr. Painter was based on
Evans’s OIG investigation. It was not an independent
Justice Department investigation.
On the eve of Mr. Painter’s federal trial, the Justice
Department dismissed ten of the counts because it
became clear that Evans falsely stated that Mr.
Painter misrepresented the purpose for conducting
five different enquires. At the end of the trial, the
Court dismissed the aggravated identity theft charges
after determining that the statute Mr. Painter was
accused of violating did not apply to his alleged
conduct on its face. The remaining twenty-nine
The standard is not “likelihood of success on the merits,” it is “a
probability of success on the claim.” Even if Evans’s statements
as a government employee in the course and scope of his duty
was protected by the first amendment, requiring Mr. Painter to
prove at the pleading stage, before discovery that he is “likely” to
prevail unconstitutionally denies Mr. Painter of due process, as
the Louisiana Constitution establishes a right to reputation, and
guarantees that “[a]ll courts shall be open, and every person shall
have an adequate remedy by due process of law and justice,
administered without denial, partiality, or unreasonable delay,
for injury to him in his person, property, reputation, or other
rights.” La. Constitution, art. I, §22. Emphasis supplied.

1

8

counts went to the jury, and the jury returned a “not
guilty” verdict on all counts.
After Mr. Painter was acquitted, he instituted an
action against various parties who either orchestrated
or were involved in his ordeal. His suit included
claims against the Office of Inspector General and
Inspector General Street, including claims for
defamation based on, inter alia, false accusations of
criminal conduct both in a warrant application
prepared by Evans and in the OIG investigation
report.
Mr. Painter added Evans as a defendant in this
proceeding, asserting defamation and 42 U.S.C. §1983
claims, after Evans testified in a separate Federal
Court proceeding that he had supplied the statements
regarding “harassment” and the crime of “staking”
that he attributed to Suire in the warrant application.
It was not until Evans testified in the Federal
proceeding about his investigation and the warrant
application in that Mr. Painter began to see the extent
of Evans’s culpability in the defamation and Mr.
Painter’s prosecution. Until that time, Mr. Painter
had no reason to believe that Ms. Suire had not made
the statements attributed to her in the warrant
application.
La. Code Crim. P. art. 162 requires that the
affidavit for a warrant recite facts establishing the
cause for the issuance of the warrant. Evans,
however, concocted the statements of criminal
activity, including those he attributed to Suire. Evans
attested, inter alia, that the OIG had conducted an

9

investigation into the crime of “stalking” and
computer tampering, referred to “female stalking
victims pursued by Mr. Painter,” referred to Suire
multiple times as the “stalking victim,” and
represented in the affidavit that Suire provided a
statement “that she had been staked and harassed by
Painter during and after her employment at ATC.”
Additionally, Evans included “sensational”
statements that were no statements of “fact,” such as
referring to Mr. Painter’s “continued obsession with
[Suire].” Evans also attested in the warrant affidavit
that “[i]ndependent interviews conducted with two
La. ATC law enforcement officers have substantiated
the stalking victim’s allegations as to Painter’s
stalking of the victim . . .”
Evans subsequently admitted under oath in
federal court that those representations were false.
He testified that Suire never told him that she had
been stalked and harassed by Mr. Painter, and that
the context of Suire’s statement was not that she had
been stalked and harassed. He specifically testified
that Suire was actually very careful not to use the
words “stalked” or “harassed” during the investigative
interviews. He admitted that those false statements
of “fact” were his, not Suire’s.
Evans also stated in the warrant affidavit that
Suire had filed a complaint with the Louisiana
Department of Revenue (LDR) but omitted that the
investigation report stated that Suire explicitly
denied that Mr. Painter had sexually harassed her.
Rather, Suire’s LDR complaint was about Mr.

10

Painter’s management style.
There were numerous other falsities attested to by
Evans, not only in the warrant application affidavit,
but also in the warrant return.
The warrant
application affidavit was submitted on Monday,
August 16, 2010. In the application, Evans informed
the Court that the OIG had conducted an
investigation into the crime of stalking and computer
tampering, and he provided specific confidential
details of the investigation and contents of the OIG’s
records of the investigation in the application. Evans
attested that probable cause existed for the issuance
of a search warrant for Mr. Painter’s former office and
the seizure of certain equipment specifically identified
as state property, including the laptop computer,
desktop computer, blackberry, and vehicle. Evans
described Mr. Painter’s former office as the location
“where the evidence of the crime of Stalking and
Computer Tampering as defined in La. R.S. 14:40.2
and 14:73.7 is located . . .” Those representations were
false. As the following timeline indicates, Evans knew
at the time that he executed the warrant affidavit that
all the items listed were already in the possession or
control of the OIG and the State Police.
On August 4, 2010, Mr. Painter sent ATC
employee Mr. Brant Thompson a letter of reprimand
associated with leaving his post of duty in July of
2010. That same day, Suire, who was close with
Thompson, filed a complaint with the OIG. 2 On

2

The actions leading up to the complaint to the OIG, and after,

11

August 9, 2010, Suire met with an OIG auditor and
provided further detail about her complaints. Evans
was assigned to investigate her complaint on August
10, 2010. Evans and the Chief OIG Investigator, Greg
Phares, met with Thompson, on August 11, 2010. On
August 12, 2010, he advised Inspector General Street
of his “findings.”
On Friday, August 13, 2010, Mr. Painter was
summoned to the Governor’s Office, where he met
with the Governor’s Executive Counsel, the head of
the Louisiana State Police, and another member of the
Governor’s Executive Counsel Staff. Mr. Painter was
informed that an unidentified law enforcement agency
(now known to be the OIG) was investigating him for
alleged criminal wrongdoing, and that the Governor
was asking for his resignation as Commissioner of the
Louisiana Office of Alcohol and Tobacco Control. Mr.
Painter refused to resign and was terminated.
Mr. Painter was prohibited from returning to his
office and he was not permitted to remove any
personal materials that he had in his office at ATC.
He was required to turn over the keys to his stateowned Dodge Charger and was forced to find alternate
transportation home.
The State Police took
possession of the keys, vehicle, laptop computer,
Blackberry, and other state-owned items that were
assigned to Mr. Painter.

were not merely coincidental. However, for purposes of this
Petition for Writ, the facts involving the collusive efforts of the
individual involved, including Evans, are not material.

12

Evans proceeded to Mr. Painter’s office, where he
removed the desktop computer assigned to Mr.
Painter from the ATC building that evening, sealed
Mr. Painter’s office, and transported the desktop
computer to his own office. Three days later, Evans
filed the warrant application affidavit specifically
enumerating the seizure of the laptop computer,
desktop computer, blackberry, and vehicle . . . all of
which had already been seized. His affidavit, however,
stated that this “evidence” was at Mr. Painter’s office.
Evans subsequently executed a return on the warrant
and filed it with the Court, falsely attesting that those
items were seized from Mr. Painter’s office in
accordance with the warrant on August 16, 2010.
The Application for Warrant was gratuitous and
unnecessary because the equipment and locations
sought to be searched were the property of the State
of Louisiana, not Mr. Painter’s. By statute, the
inspector general has access to all records,
information, data, reports, plans, projections, matters,
contracts, memoranda, correspondence, and any other
materials
of
a
covered
agency.
LSA-R.S.
49:220.24(F)(3). The OIG not only had full and
complete access to the items and information sought
in the warrant application by operation of law, but
also already had physical possession or control of the
enumerated items.
By law, OIG investigations and the information
gathered during such investigations is confidential,
except for the reports of investigations released at the
completion of the investigation. LSA-R.S. 49:220.5.

13

The result of seeking and obtaining this unnecessary
warrant was that details regarding the investigation,
which by law are required to remain confidential,
became public. Not coincidentally, the news media
was “tipped off” to the filing of the warrant
application, obtained a copy from the court records,
and immediately reported the salacious, defamatory,
details of the warrant application.
The circumstances surrounding the issuance of the
warrant based on Evans’s false affidavit are
significant to the substance of this Petition. Mr.
Painter discusses, infra, the applicability of the
“qualified privilege” analysis to this case. By no
means does the outcome of the analysis apply only to
the specific circumstances of this case. However, as
“actual malice” and “qualified privilege” are often
conflated, the circumstances of this case serve to
highlight why “qualified immunity” as a defense is the
appropriate standard where defamatory speech by a
public employee is not protected by the First
Amendment.
Mr. Painter raised the due process issues at every
level of the state proceedings below.
Evans filed multiple exceptions of no cause of
action, alleging that under the facts alleged in his
petition, Mr. Painter had not stated a cause of action
for defamation because those facts, if taken as true, do
not establish ”actual malice” as required by this Court
in New York Times v. Sullivan, 376 U.S. 254 (1964).
In response to each of those exceptions (and in
response to motions and exceptions filed by the OIG

14

prior to Evans being added as a defendant), as well as
in response to each of the various writ applications
filed by Evans and in support of Mr. Painter’s
applications for writs to the Louisiana Supreme
Court, Mr. Painter addressed in detail this Court’s
holding in Garcetti v Ceballos that “when public
employees make statements pursuant to their official
duties, the employees are not speaking as citizens for
First Amendment purposes.”
In addressing the various exceptions and writ
applications, Mr. Painter addressed the impact of
Garcetti v. Ceballos and other decisions on
applicability of the “actual malice” standard; that is,
absent a defendant’s exercise of a First Amendment
right, New York Times’s requirement that the plaintiff
in a defamation case must prove “actual malice” does
not apply. Rather, the Defendant must assert a
defense of “qualified privilege.” Only after the defense
is properly and adequately raised would the burden
shift to Mr. Painter to establish abuse of the privilege.
Mr. Painter further raised the issue that even if
the New York Times “actual malice” standard does
apply, it only addresses that standard as it applies to
the state’s ability to impose monetary damages. It
does not prohibit access to the courts to obtain a
judgment vindicating a plaintiff’s reputation. Mr.
Painter argued that this is particularly true when, as
is here, the State Constitution guarantees access to
the Courts and adequate remedy for damage to
reputation.
Despite Mr. Painter consistently raising the

15

argument, the courts would not address the issue.
The district court ruled without addressing the
argument, instead applying the “actual malice”
standard.
Twice the district court granted the
exception but ordered the petition amended to meet
the “actual malice” standard. The third time, the
district court denied Evans’s exception, ruling that
Mr. Painter had stated a cause of action based on the
“actual malice” standard.
Evans then filed an application for supervisory
writ with the Louisiana First Circuit, arguing that
Mr. Painter did not meet the standard for stating a
cause of action under the “actual malice” standard.
Mr. Painter raised the First Amendment issue as it
relates to the “actual malice” standard. The Court
granted the writ, reversed the district court, granted
the exception, and dismissed the claim, applying the
“actual malice” standard. The First Circuit did not
address the First Amendment issue in its ruling.
Mr. Painter filed a writ application with the
Louisiana Supreme Court, again raising the First
Amendment issue. The Louisiana Supreme Court
granted the writ and reversed the First Circuit. The
reversal, however, was on the basis that Mr. Painter
should have been afforded the opportunity to again
amend his petition to state a cause of action under the
“actual malice” standard. The Louisiana Supreme
Court did not address the First Amendment issue.
On remand, Mr. Painter amended his petition yet
again. In an attempt to have the courts cease ignoring
the First Amendment issue, Mr. Painter pointed out

16

to the Court that if Evans believed he was exercising
his First Amendment right, he would have filed a
special motion to strike rather than an exception of no
cause of action. Evans responded by filing his Special
Motion to Strike. That Special Motion to Strike is the
motion that ultimately resulted in the dismissal of Mr.
Painter’s claims and that is the subject of this petition.
On the hearing of the Special Motion to Strike, Mr.
Painter again addressed in detail the holdings of this
Court related to the First Amendment and
government employees speaking in the course and
scope of their employment. The District Court did not
rule on the issue, instead ruling that Mr. Painter
established a probability of success on the merits.
Appendix A. Evans sought a writ, which was granted
and which reversed the district court, granting the
Special Motion to Strike and dismissing Mr. Painter’s
claim with prejudice. Appendix C. Mr. Painter raised
cited Garcetti, but the First Circuit nonetheless ruled
Evans was exercising a First Amendment right. Mr.
Painter raised the issue in detain both in his request
for rehearing, which was denied (Appendix D) and in
his application for supervisory writ to the Louisiana
Supreme Court, which was also denied (Appendix E).
REASONS FOR GRANTING THE PETITION
“We are required in this case to determine for the
first time the extent to which the constitutional
protections for speech and press limit a State's
power to award damages in a libel action brought
by a public official against critics of his official
conduct.”

17

This opening line from New York Times v. Sullivan
set the scope of the question regarding the
relationship between the First Amendment and
defamation actions. It forms the basis for each
analysis by this Court on defamation since.
Significantly,
the
Constitutional
restriction
recognized in the question and, ultimately, in this
Court’s answer to the question, was under what
circumstances, if any, a State could impose monetary
damages for defamation against a public official. The
exercise of the First Amendment right to free speech
was the basis for the question. It was not a fact
irrelevant to the issue.
In Starr v. Boudreaux, 978 So.2d 384 (La. App. 1
Cir. 2007), the Louisiana First Circuit similarly
framed the issue, prefacing its analysis by stating “[i]n
cases involving statements made about a public
figure, where constitutional limitations are
implicated, a plaintiff must prove actual malice . . .”
Acknowledging this Court’s precedent on the issue,
the Louisiana First Circuit went on to say:
Particularly, Starr contends that these five
statements are defamatory per se, and
therefore, he does not need to establish falsity,
malice or injury, as those elements are
presumed. However, the Louisiana Supreme
Court has recognized that the legacy of United
States Supreme Court decisions regarding
defamation is that ‘the protections afforded
by the First Amendment supersede the
common law presumptions of [malice],

18

falsity, and damages with respect to speech
involving matters of public concern, at
least insofar as media defendants are
concerned.’ Kennedy, 05-1418 at p. 8, 935
So.2d at 677 (referring to Rosenbloom v.
Metromedia, Inc., 403 U.S. 29, 91 S.Ct. 1811, 29
L.Ed.2d 296 (1971), Gertz v. Robert Welch, Inc.,
418 U.S. 323, 94 S.Ct. 2997, 41 L.Ed.2d 789
(1974), and Philadelphia Newspapers, Inc. v.
Hepps, 475 U.S. 767, 106 S.Ct. 1558, 89 L.Ed.2d
783 (1986).
Starr, 978 So.2d at 390 (emphasis supplied).
That analysis of United States Supreme Court and
Louisiana Supreme Court precedent held firm; that is,
until Mr. Painter, in a case with extensive political
implications, pointed out to the Court that this is not a
case “where constitutional limitations are implicated”
because Evans was speaking as a government
employee in the course and scope of his government
duties. Now, the Louisiana courts either fail to grasp
the significance of this Court’s precedent established in
Garcetti v. Ceballos or choose to ignore that binding
precedent.
The issues in this case do not just impact Mr.
Painter. They have profound national significance.
Mr. Painter does not call for a dismantling or rejection
of New York Times v. Sullivan or its progeny, but
rather a clarification or limitation on the unfettered
expansion of its premise. Rulings by this Court
intended to prevent the chilling of free speech by public
officials with power and influence are being turned on

19

their head. Anti-SLAPP laws intended as a shield,
such as Louisiana’s Special Motion to Strike, are
increasingly being used as a weapon, particularly by
those with power and influence against “public figures"
without such power and influence.
1. Statements by government employees made
pursuant to their official duties do not enjoy First
Amendment protection because the government
employees are not speaking as citizens. Such
speech therefore does not constitute an act in
furtherance of a First Amendment right to free
speech.

In Garcetti v. Ceballos, 547 U.S. 410 (2006), this
Court was faced with determining whether a public
employee was improperly disciplined in violation of his
First Amendment right to free speech. In a slight twist
of irony, the speech at issue was the employee’s
memorandum to his supervisor conveying his concern
over misrepresentations in an affidavit used to obtain
a search warrant.
This Court held that two inquiries guide
interpretation of the constitutional protections
accorded public employee speech. The threshold
inquiry requires determining whether the employee
spoke as a citizen on a matter of public concern. Id. at
418, citing Pickering v. Board of Ed. of Township High
School Dist. 205, Will Cty., 391 U. S. 563, 568. If the
answer to the threshold inquiry is no, the employee has
no First Amendment cause of action based on the
employer's reaction to the speech. Id., citing Connick v.
Myers, 461 U. S. 138, 147. If the answer to the

20

threshold inquiry is yes, the possibility of a First
Amendment claim arises, and the analysis moves to
the second question, which in Garcetti was whether the
government employer had adequate justification for
treating the employee differently from any other
member of the general public. Id.
This Court did not get beyond the threshold
inquiry. It held that when public employees make
statements pursuant to their official duties, the
employees are not speaking as citizens for First
Amendment purposes, and the employee’s expressions
at issue were made pursuant to his duties as a
prosecutor. Id. at 421.
The Louisiana Special Motion to Strike likewise
entails making a threshold inquiry of whether the
mover was exercising a Constitutional right to free
speech. If the answer is no, the inquiry ends there and
the special motion to strike must be denied. If the
answer is yes, the analysis moves to the second
question, which is whether the plaintiff has
established a probability of success on the claim.
The threshold issue is the same in this case as it
was in Garcetti: when public employees make
statements pursuant to their official duties, are they
speaking as citizens for First Amendment purposes?
Evans argues in the proceedings below that Garcetti
was not applicable because it was not a defamation
case. However, because the First Amendment question
is a threshold inquiry in both instances, the nature of
the action (or the inquiry to follow) makes no
difference. The answer to the question in either case

21

is the same: when public employees make statements
pursuant to their official duties, the employees are not
speaking as citizens for First Amendment purposes.
Regarding why this Court should grant the petition for
writ, clarifying the First Amendment issues in this
case has great significance beyond Mr. Painter’s case
and beyond special motions to strike or other antiSLAPP actions. As the judgments on the various
exceptions of no cause of action exceptions prior to the
judgment on the special motion to strike bear out,
absent a clarification of New York Times and its
progeny, public figure plaintiffs who have been
defamed by government employees or the government
itself improperly have the burden shifted to them to
prove “actual malice” at the petitioning stage and, if
the plaintiff survives a no cause of action or special
motion to strike, during the following proceedings.
At one point the Louisiana Supreme Court was
came close to recognizing the issue, and had the issue
been raised, the analysis might have been different. In
Kennedy v. East Baton Rouge Parish Sheriff’s Office,
935 So. 2d 669 (La. 2006), a landmark defamation case
in Louisiana, the Louisiana Supreme Court quoted
from its analysis in Trentecosta v. Beck, 703 So. 2d 552
(La. 1997), stating:
In the course of our examination, we noted
that the constitutional restraints imposed on
the tort of defamation by virtue of the New
York Times decision have called into question
the continued viability of the conditional or
qualified privilege . . . Arguably, conditional

22

[qualified] privileges have
lost
their
significance under the current state of the law
which requires the offended person to prove
the publisher's fault with regard to the falsity
of the statement . . .
This case establishes that qualified privileges have not
lost their significance in defamation actions against
government employees speaking in the course of their
duties, as they have no First Amendment protection.
The Louisiana Supreme Court’s statement in that
regard was colored by its misinterpretation that the
only factor in a defamation case under New York Times
is whether the plaintiff is a “public figure,” apparently
assuming all speech has First Amendment protection.
Not every defamation case involves the exercise of
First Amendment rights, however. The “constitutional
restraints imposed on the tort of defamation by virtue
of the New York Times decision” do not apply to public
employees whose statements are not afforded First
Amendment protection, and under this Court’s ruling
in Garcetti, there are no First Amendment rights
implicated in this case.
Far from extending First Amendment protection to
government speech and eliminating conditional
privilege as a defense, in New York Times this Court
described its ruling as “appropriately analogous” to the
privilege afforded to public officials when sued for
defamation. The “qualified privilege” privilege defense
is alive and has not lost its significance, and Mr.
Painter’s defamation claim should likewise be alive.

23

Qualified privilege is a defense that must be
pleaded. Once the defense is properly pleaded, the
plaintiff must establish the defendant’s abuse of the
privilege. Trentecosta v. Beck, 703 So. 2d This is an
extremely important distinction, in that defamation
suits against public officials are not subject to AntiSLAPP statutes such as Louisiana Code Civ. Proc. art
971.
2. Government speech does not become “protected
speech” under the First Amendment to the United
States Constitution simply because the target of
the speech is a public figure.

In the hearing on the special motion to strike and
in its writ application, Evans focused on Mr. Painter’s
status as a former public official, asserting that status
alone requires application of Sullivan and the burden
to prove “actual malice.” To the extent that was the
basis of the First Circuit’s ruling, not only does the first
sentence of the opinion in Sullivan refute that
contention, but this Court specifically rejected the
same argument in Garcetti.
In reversing the United States Ninth Circuit in
Garcetti, this Court focused on the Ninth Circuit’s
conclusion that the subject of the public employee’s
memo was "inherently a matter of public concern." This
Court ruled that the Ninth Circuit erred in reaching
that conclusion because it did not first “consider
whether the speech was made in [the public
employee’s] capacity as a citizen.” Garcetti, 547 U.S. at
416 Noting that Supreme Court precedent “instructs
courts to begin by considering whether the expressions

24

in question were made by the speaker ‘as a citizen
upon matters of public concern,’" this Court specifically
addressed the fact that the Ninth Circuit ignored
Supreme Court precedent and instead relied on its own
precedent that rejected the idea that “a public
employee's speech is deprived of First Amendment
protection whenever those views are expressed, to
government workers or others, pursuant to an
employment responsibility.” Id. at 415-16; citing
Connick v. Myers, 461 U. S. at 146-47.
The Louisiana First Circuit’s conclusion that
Evans’s statements in his capacity as a government
employee are “in furtherance of his First Amendment
rights” conflicts with the clear binding precedent of
this Court. Although there are Louisiana cases in
which the burden of proving “actual malice” has been
placed on “public figure plaintiffs” in actions against
government defendants, the issue that government
defendants have no First Amendment protection has
never been raised and addressed in any of those cases.
It is absurd to conclude that Mr. Painter is
prohibited from raising the issue, and the courts
prohibited from addressing the issue, merely because
attorneys on earlier cases failed to recognize and raise
the issue. This is particularly absurd in civil law,
under which Louisiana operates. Such a conclusion
not only fails under the principle of stare decisis, which
does not apply in Louisiana, but fails miserably and
tears at the heart of the principles of civil law and
jurisprudence constante, which supposedly is the
keystone of Louisiana law.

25

3. This Court has not changed
constituting defamation.

the

elements

Under no interpretation of New York Times v.
Sullivan or its progeny can this Court be said to have
changed the elements of the tort of libel, or defamation.
Rather, this Court has defined the parameters under
which a state court can award damages in an action
brought by a public official against critics of his official
conduct. This is a distinction with a difference. 3
In defamation actions brought by public officials or
public figures, state courts have had a tendency to
lazily and sloppily equate this Court’s holding that the
Constitution limits a State’s power to award monetary
damages in certain situations with a conclusion that
this Court has changed the elements of defamation to
include “actual malice.”
Rather, it limited the
circumstances in which a public figure plaintiff can
recover monetary damages for defamation due to
Constitutional restrictions on punishing free speech.
Under New York Times and its progeny, the
elements of defamation have not changed, but the bar
was raised for recovery of monetary damages by
public officials who have been defamed when First
Amendment rights are implicated. As stated by
Justice Stewart in his concurring opinion in Columbia
Broadcasting System, Inc. v. Democratic National
As opposed to a distinction without a difference, which is a type
of logical fallacy where an author or speaker attempts to describe
a distinction between two things where no discernible difference
exists.

3

26

Committee, 412 U.S. 94, (1973), “the First Amendment
protects the press from government, but that “it
confers no analogous protection on the Government.”
As explained in n.7, “Government is not restrained by
the First Amendment from controlling its own
expression.”
4. This Court did not divest public officials or public
figures of the right to seek a ruling from the courts
that the speech at issue was defamatory.

The issue before this Court in New York Times was
“the extent to which the constitutional protections for
speech and press limit a State's power to award
damages in a libel action brought by a public official
against critics of his official conduct.” New York Times,
376 U.S. at 279-80 (emphasis supplied). This Court
concluded that “[t]he constitutional guarantees
require, we think, a federal rule that prohibits a public
official from recovering damages for a defamatory
falsehood relating to his official conduct unless he
proves that the statement was made with "actual
malice."
New York Times, 376 U.S. at 279-80
(emphasis supplied).
The unanswered question is whether a public
official must be allowed to proceed in the hopes of
obtaining at least a non-monetary remedy, such as a
judgment protecting his reputation.
This is
particularly significant in a state such as Louisiana,
where the State Constitution establishes a right to
access to the Courts to protect one’s reputation.
La. Const. art. I, §22 guarantees access to the

27

courts, providing that “[a]ll courts shall be open, and
every person shall have an adequate remedy by due
process of law and justice, administered without
denial, partiality, or unreasonable delay, for injury to
him in his person, property, reputation, or other
rights.” This Court’s ruling in New York Times and
subsequent rulings do not appear to foreclose pursuit
of such remedies.
Further, this Court has not addressed the issue of
whether such right under a State Constitution to
protect one’s reputation affects the ability of the State
to impose monetary damages for defamation.
CONCLUSION
For the reasons stated above, Mr. Painter’s
Petition for a Writ of Certiorari should be granted.

1a

APPENDIX A
Minute Entry with Ruling from the Court
No. 604-308
Murphy J. Painter vs. State of La. et al.
This matter came before the Court for Shane Evans’
Special Motion to Strike. Present in Court: Robert
Aguiluz, counsel for plaintiff, Neshira Millender,
counsel for the Louisiana Inspector General, Shane
Evans; Carolyn Cole, counsel for Brant Thompson.
The matter was argued by counsel and the matter was
submitted to the Court.
Whereupon, the Court took this matter under
advisement
“The Court is of the opinion that the probability of
success has been demonstrated by plaintiff which the
Court finds that he must demonstrate which is merely
that the complaint is both legally sufficient and
supported by sufficient prima facie showing of facts to
sustain a favorable judgment. Consequently, the
Court denies the Special Motion to Strike. Ten days
to take writs. Notify Counsel.”
(Lori Achee, Monday, May 21, 2018)

2a

APPENDIX B
NINETEENTH JUDICIAL DISTRICT COURT
PARISH OF EAST BATON ROUGE
STATE OF LOUISIANA
MURPHY J. PAINTER

NO. 604,308

VERSUS
STATE OF LOUISIANA, ET AL

DIVISION D

JUDGMENT
The matter came before the Court on May 21,
2018 on a Special Motion to Strike filed on behalf of
Shane Evans (“Mr. Evans”). Present in court were
Robert N. Aguiluz, appearing on behalf of Murphy J.
Painter (“Mr. Painter”): Ne’Shira D. Millender and
Katie D. Bowman, appearing on behalf of Shane
Evans (“Mr. Evans”): and Carolyn Cole, appearing on
behalf of Brant Thompson. The Court took the matter
under advisement. On May 21, 2018, the Court issued
a written ruling denying Shane Evans’ Special Motion
to Strike.
CONSIDERING the applicable law, the
pleadings filed by the parties, the memoranda in
support of same, and the arguments of all counsel
present, and in accordance with the written ruling
issued by this Honorable Court on May 21, 2018:
IT IS ORDERED, ADJUDGED, AND
DECREED that Shane Evans’ Special Motion to
Strike is DENIED.

3a

JUDGMENT RENDERED on May 21, 2018,
and READ and SIGNED at Baton Rouge, Louisiana,
this 22 day of Aug, 2018.
/s/: Janice Clark
JUDGE JANICE CLARK
19th JUDICIAL DISTRICT COURT

4a

APPENDIX C
STATE OF LOUISIANA
COURT OF APPEAL, FIRST CIRCUIT
MURPHY J. PAINTER

NO.

2018 CW 1289

VERSUS
STATE OF LOUISIANA, THROUGH DEC 26 2018
THE OFFICE OF THE GOVERNOR,
THE DEPARTMENT OF REVENUE
AND TAXATION, ALCOHOL TOBACCO
CONTROL COMMISSION, CYNTHIA
BRIDGES, IN HER OFFICIAL CAPACITY
AS SECRETARY OF THE DEPARTMENT OF
REVENUE AND TAXATION, THE OFFICE
OF STATE INSPECTOR GENERAL, AND
STEPHEN STREET, IN HIS OFFICIAL
CAPACITY AS STATE INSPECTOR GENERAL
In Re: Shane Evans, applying for supervisory writs,
19th Judicial District Court, Parish of East Baton
Rouge, No. 604308.
BEFORE: GUIDRY, THERIOT, AND PENZATO,
JJ.
WRIT GRANTED IN PART WITH ORDER;
DENIED IN PART. The district court's May 21,
2018, judgment denying Shane Evans' Special Motion
to Strike is hereby reversed in part. "A cause of action

5a

against a person arising from any act of that person in
furtherance of the person's right of petition or free
speech under the United States or Louisiana
Constitution in connection with a public issue shall be
subject to a special motion to strike, unless the court
determines that the plaintiff has established a
probability of success on the claim." La. Code Civ. P.
art. 971(A)(1). If the mover on a special motion to
strike makes a prima facie showing that his comments
were constitutionally protected and in connection with
a public issue, the burden shifts to the plaintiff to
demonstrate a probability of success on the claim.
Shelton v. Pavon, 2017-0482 (La. 10/ 18/ 17), 236 So.
3d 1233, 1237. Murphy J. Painter alleged two causes
of action arising from statements Shane Evans made
in a search warrant application and his Office of
Inspector General investigative report in furtherance
of his First Amendment rights and in connection with
a public issue: defamation and deprivation of a
Fourteenth Amendment right. Thus, the burden
shifted to Murphy J. Painter to demonstrate
likelihood of success on the merits of these two claims.
In his opposition to Shane Evans' Special Motion to
Strike, Murphy J. Painter failed to timely submit any
evidence in support of his Opposition to Shane Evans'
Special Motion to Strike. Argument of counsel and
briefs, no matter how artful, are not evidence." Regan
v. Caldwell, 2016- 0659 (La. App. lst Cir. 4/ 7/ 17),
218 So. 3d 121, 128, writ denied, 2017- 0963 (La. 4/ 6/
18), 239 So. 3d 827. Failure to produce supporting
affidavits or otherwise competent evidence is
insufficient to overcome a special motion to strike. Id.
Therefore, Murphy J. Painter failed to demonstrate a
likelihood of success on the merits as to his

6a

defamation and Fourteenth Amendment claims
against Shane Evans. As such, Shane Evans' Special
Motion to Strike is hereby granted as to these claims,
and they are dismissed with prejudice. Murphy J.
Painter' s Fourth Amendment and abuse of process
claims do not arise from any act of Shane Evans in
furtherance of his right of petition or free speech and
therefore are not subject to a special motion to strike.
Shane Evans' Special Motion to Strike is therefore
denied as to these claims.
Louisiana Code of Civil Procedure article 971(B)
provides that a prevailing party on a special motion to
strike shall be awarded reasonable attorney fees and
costs. This matter is remanded to the district court for
a determination of the amount of reasonable attorney
fees and costs to be awarded to defendant, Shane
Evans.
JMG
MRT
AHP

7a

APPENDIX D
STATE OF LOUISIANA
COURT OF APPEAL, FIRST CIRCUIT
MURPHY J. PAINTER

NO.

2018 CW 1289

VERSUS
STATE OF LOUISIANA, THROUGH
THE OFFICEOF THE GOVERNOR,
THE DEPARTMENT OF REVENUE
AND TAXATION, ALCOHOL TOBACCO
CONTROL COMMISSION, CYNTHIA
BRIDGES, IN HER OFFICIAL CAPACITY
AS SECRETARY OF THE DEPARTMENT OF
REVENUE AND TAXATION, THE OFFICE
OF STATE INSPECTOR GENERAL, AND
STEPHEN STREET, IN HIS OFFICIAL
CAPACITY AS STATE INSPECTOR GENERAL
JANUARY 17, 2019
In Re: Murphy J. Painter, applying for rehearing, 19th
Judicial District Court, Parish of East Baton
Rouge,
No. 604308.
BEFORE: GUIDRY, THERIOT, AND PENZATO, JJ.

APPLICATION FOR REHEARING DENIED
JMG
MRT
AHP

8a

APPENDIX E
THE SUPREME COURT OF THE
STATE OF LOUISIANA
MURPHY J. PAINTER

NO.

2019 CC 0283

VERSUS
STATE OF LOUISIANA, THROUGH THE OFFICE
OF THE GOVERNOR, THE DEPARTMENT OF
REVENUE AND TAXATION, ALCOHOL TOBACCO
CONTROL COMMISSION, CYNTHIA BRIDGES, IN
HER OFFICIAL CAPACITY AS SECRETARY OF
THE DEPARTMENT OF REVENUE AND
TAXATION, THE OFFICE OF STATE INSPECTOR
GENERAL, AND STEPHEN STREET, IN HIS
OFFICIAL CAPACITY AS STATE INSPECTOR
GENERAL
IN RE: Murphy J. Painter- Plaintiff; Applying for
Writ of Certiorari and/or Review, Parish of E. Baton
Rouge, 19th Judicial District Court, No. 604,308, to the
Court of Appeal, First Circuit, No. 2018 CW 1289;
April 8, 2019
Denied

JLW
BJJ
GGG
MRC
SJC
JTG

HUGHES, J., would grant.

